BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief in Opposition in 19458, John Schickel and David Watson v. George C.
Troutman, Pat Freibert, Tony Goetz, Elmer George,
Ken Winters, Tom Jensen, Sheldon Baugh, Phil
Huddleston, and Anthony M. Wilhoit, in their official
capacities as members of Kentucky Legislative Ethics
Commission; H. John Schaaf, in his official capacity as
Executive Director of the Kentucky Legislative Ethics
Commission, were sent via Two Day Service to the
U.S. Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 6th day of November, 2019:
Robert A. Winter, Jr.
Law Office of Robert A. Winter, Jr.
P.O. Box 175883
Fort Mitchell, KY 41017-5883
(859) 250-3337
ro berta win terj r@gmail.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

La Tasha Buckner
Counsel of Record
Assistant Deputy Attorney General
Laura C. Tipton
Sarah Ellen Eads Adkins
Assistant Attorneys General
Kentucky Office of the Attorney General
Office of Civil & Environmental Law
The Capitol Building
700 Capitol Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
latasha. buckner@ky.gov

Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 6, 2019.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

1

_,dNER

1ijP. q
Not, ry Publl_c..,. t 11:ii 011io
My Comm,~ o tp,res

JULIE ANNE I

February 21, 1 023

0

